              r",                           NATIONAL SCIENCE FOUNDATION
                 n                          OFFICE OF INSPECTOR GENERAL
      0                                        OFFICE OF INVESTIGATIONS


11                                    CLOSEOUT MEMORANDUM

     Case Number: A04080053
                                                                        11        Page 1of 1



          The complainant alleged the subject1 misrepresented herself a s Principal
          Investigator (PI) of a grant2 i n the Acknowledgment section of her p a i e r s and on
          her curriculum vitae (CV). We reviewed the CV, three papers t h a t illustrate the
          complaint,3 and the grant. The subject is listed a s a co-PI on the Cover Sheet,
          Grant Letter, and Final Report. Accordingly, she should list this grant in the
          Acknowledgment section of her papers, where appropriate. She was the only author
          of the papers who was supported by the grant. Thus, it was appropriate for her to
          denote which co-author received the grant in the Acknowledgments. Therefore, we
          conclude the evidence does not support the allegation, and have closed this case.




             1 (footnote redacted).
               (footnote redacted).
             3 (footnote redacted).
